                                                                               AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND SPORT FISH
RESTORATION PROGRAM GRANTS
Awarded to the State of Mississippi, Department of Wildlife, Fisheries, and Parks,
From July 1, 2009, Through June 30, 2011




Report No.: R-GR-FWS-0005-2012                                                May 2012
                                                                                         May 22, 2012

                                           AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Suzanna I. Park
               Director of External Audits

Subject:       Audit – U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the State of Mississippi, Department of Wildlife,
               Fisheries, and Parks, From July 1, 2009, Through June 30, 2011
               Report No. R-GR-FWS-0005-2012

        This report presents the results of our audit of costs claimed by the State of Mississippi
(State), Department of Wildlife, Fisheries, and Parks (Department), under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife
and Sport Fish Restoration Program. The audit included claims totaling $35.2 million on 33
grants that were open during State fiscal years that ended June 30, 2010, and June 30, 2011 (see
Appendix 1). The audit also covered the Department’s compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $33,656 due to (1) unapproved indirect
cost rates, (2) unsupported in-kind contributions, (3) out-of-period direct costs, and (4) ineligible
direct costs. We also found that the Department did not maintain accurate real property records
and had inadequate assent legislation.

       In addition, during our fieldwork, we found that the Department charged grants W-5-21
and W-5-22 (Mississippi Hunter Education Program) salary that should have been charged to
grants W-60-7 and W-60-8 (Hunter Education Enhancement). FWS approved the charges to
grants W-5-21 and W-5-22 because both grants enhance hunter education programs; therefore,
we consider this issue resolved.

      We provided a draft report to FWS for a response. We summarized Department and FWS
Region 4 responses to the recommendations, as well as our comments on the responses after the
recommendations. We list the status of the recommendations in Appendix 3.




                           Office of Audits, Inspections, and Evaluations | Reston, VA
       Please respond in writing to the findings and recommendations included in this report by
August 20, 2012. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation. Please address your
response to:

                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

       If you have any questions regarding this report, please contact the audit team leader,
Lori Howard, Auditor, or me at 703-487-5345.

cc: Regional Director, Region 4, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background .......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary.................................................................................................... 3
   Findings and Recommendations .......................................................................... 3
Appendix 1 ............................................................................................................ 11
Appendix 2 ............................................................................................................ 13
Appendix 3 ............................................................................................................ 14
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The Acts also require
that hunting and fishing license revenues be used only for the administration of
the State’s fish and game agency. Finally, Federal regulations and FWS guidance
require States to account for any income earned using grant funds.

Objectives
We conducted this audit to determine if the State of Mississippi (State);
Department of Wildlife, Fisheries, and Parks (Department)—

       •    claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and the grant
            agreements;
       •    used State hunting and fishing license revenues solely for fish and wildlife
            program activities; and
       •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling $35.2 million on the 33 grants open during
State fiscal years (SFYs) that ended June 30, 2010, and June 30, 2011 (see
Appendix 1). We report only on those conditions that existed during this audit
period. We performed our audit at the Department headquarters in Jackson, MS,
and visited eight wildlife management areas, two lakes, two fish hatcheries, one
museum, and one shooting facility (see Appendix 2). We performed this audit to
supplement—not replace—the audits required by the Single Audit Act
Amendments of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                                                      1
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions for testing. We did not project the
results of the tests to the total population of recorded transactions or evaluate the
economy, efficiency, or effectiveness of the Department’s operations.

Prior Audit Coverage
On September 21, 2007, we issued “Audit on the U.S. Fish and Wildlife Service
Federal Assistance Program Grants Awarded to the State of Mississippi,
Department of Wildlife, Fisheries, and Parks, From July 1, 2004 through June 30,
2006” (R-GR-FWS-0008-2007). We followed up on all recommendations in the
report and found that the U.S. Department of the Interior, Office of the Assistant
Secretary for Policy, Management and Budget considered the recommendations
resolved and implemented.

We reviewed Single Audit Reports and Comprehensive Annual Financial Reports
for Mississippi’s SFYs 2009 and 2010. Neither of these reports contained any
findings that would directly affect the Program grants.




                                                                                    2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, several conditions that resulted in the findings
listed below, including questioned costs totaling $33,656.

Questioned Costs. We questioned costs totaling $33,656 due to (1) unapproved
indirect cost rates, (2) unsupported in-kind contributions, (3) out-of-period direct
costs, and (4) ineligible direct costs.

Inaccurate Real Property Records. The Department maintains land records that
do not agree with the FWS land database.

Inadequate Assent Legislation. The State’s legislation assenting to the Acts does
not include a prohibition against diverting license fees for purposes other than the
administration of its fish and wildlife activities.

Findings and Recommendations
A. Questioned Costs — $33,656

1. Unapproved Indirect Costs — $17,259

Indirect costs are normally charged to Federal grants by the use of an indirect cost
rate. The Code of Federal Regulations (CFR), 2 CFR § 225, Appendix E, Section
D.1.a, requires that all grantees planning to claim indirect costs under Federal
awards prepare an indirect cost proposal and supporting documentation. The
proposal is required, under 2 CFR § 225, Appendix E, Section E.1, to be
submitted to an independent (cognizant) agency to review, negotiate, and approve
the proposed indirect cost rates on a timely basis.

The Department did not submit the indirect cost proposal for SFY 2011 in a
timely manner; therefore no rate was negotiated. FWS approved the use of a
temporary rate for SFY 2011 on Program grants. Instead of using the approved
rate of 5.71 percent, the Department used unapproved rates resulting in an
overcharge of $17,259 (Federal share) to grant W-5-21; therefore, we question
$17,259 of indirect costs.




                                                                                       3
 Recommendation

 We recommend that FWS resolves the $17,259 (Federal share) of questioned
 indirect costs.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan that resolves the questioned
costs.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

2. Unsupported In-kind Contributions — $10,602

Under the Program, States must use “State matching” (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the grants.
Non-cash (“in-kind”) contributions may be used to meet States’ matching share of
costs, and as with costs claimed for reimbursement, States must support the value
of these contributions. The Acts and Federal regulations contain provisions and
principles on eligible costs and allow FWS to reimburse States up to 75 percent of
the eligible costs incurred under the grants. The State’s matching share of costs on
its Hunter Education grant (W-60-7) included in-kind contributions consisting of
the value of volunteer instructor hours. We reviewed the in-kind amounts and
found that the Department did not have instructor timesheets to support $3,534 in
volunteer instructor hours claimed.

Federal regulations (2 CFR § 225, Appendix A, Section C.1.j) provides basic
guidelines on cost principles which require that for a cost to be allowable under
Federal awards, it must be adequately documented. In addition, 43 CFR § 12.64
(b)(6), outlines requirements for matching or cost sharing records and states that,
to the extent feasible, volunteer services will be supported by the same methods
that the organization uses to support the allocability of regular personnel costs.



                                                                                      4
Although the Department had policies and procedures in place to maintain
volunteer timesheets, an employee who maintained the volunteer timesheets for
the hunter education program retired and, as a result, the records could not be
found.

Because the Department could not support the $3,534 (25 percent) of in-kind
contributions from volunteer hours claimed on grant W-60-7, we determined that
the Department overstated its share of matching costs reported on the Federal
Financial Report (SF 425). Therefore, we question the $10,602 (75 percent)
Federal share associated with these costs.

Recommendations

We recommend that FWS—

    1. resolves the unsupported costs of $10,602 (Federal share); and

    2. ensures the Department complies with Federal regulations to
       document volunteer hours used as match.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations. FWS
will work with the Department in developing and implementing a corrective
action plan that will resolve the finding and recommendations.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendations;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

3. Out-of-period Costs — $3,896

The Department entered into a cooperative agreement with Mississippi State
University to perform research under grant F-143-R-1. The performance period
for F-143-R-1 was June 1, 2009, through May 31, 2010. The university billed the



                                                                                  5
Department $5,195 for work performed in June 2010, which was outside of the
grant period.

Federal regulations (43 CFR § 12.63a) states that where a funding period is
specified, a grantee may charge to the award only costs resulting from obligations
of the funding period. In addition, 31 U.S.C. § 1501(a)(1)(B) states that recording
an obligation for the U.S. Government can only take place when the transaction
for specific goods to be delivered or service to be provided can be executed before
the end of the period of availability.

Because the Department incorrectly paid the $5,195 ($3,896 Federal share)
expenditure under grant F-143-R-1, we question the Federal share of $3,896.

Recommendation

We recommend that FWS resolves the questioned costs of $3,896 (Federal
share).


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan that resolves the questioned
costs.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

4. Ineligible Direct Costs — $1,899

The Department charged $2,532 of boat maintenance expenditures in error to the
Hunter Education Program grant W-60-8. Because boat maintenance does not
benefit the hunter education program, we question the Federal share of $1,899 as
ineligible direct costs.




                                                                                   6
Federal regulations (2 CFR § 225, Appendix A, Sections C.1.a, b, and j) specifies
that allowable costs must be necessary and reasonable, be allocable to the award
only if it provides a benefit to the grant, and can be adequately supported.

Recommendation

We recommend that FWS resolves the ineligible direct costs of $1,899
(Federal share).


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation. FWS
will work with the Department in developing and implementing a corrective
action plan that will resolve the finding and recommendations.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Inaccurate Real Property Records

To help maintain control over the use of land acquired with Program funds or
license revenue, the Department must ensure that its database of real property is
accurate and reconciles with land records maintained by FWS. Although the
Department and FWS agreed that a reconciliation had been performed, neither
were able to provide documentation that the reconciliation took place.

We reviewed six grants for accuracy of information and found differences in the
following three grants:

                             FWS          Department
           Grant             Acres          Acres            Difference
         FW-7-L               9,151           8,251              900
         W-27-L               6,591           6,554               37
         W-59-L              13,467          13,328              138



                                                                                    7
In addition, the Department’s database did not include the source of funds (e.g.,
Program funds, license revenues, etc.) used to purchase real property, even though
the hard copy files showed the funding source.

Federal regulations (50 CFR § 80.18(c)) requires the States to be responsible for
the accountability and control of all assets acquired with Program funds to assure
that they are used, throughout their useful life, for the purpose for which they
were acquired. Also, 50 CFR § 80.4 extends the same accountability and control
requirements to those assets acquired with license revenues.

Department officials acknowledged that there are no policies and procedures in
place to ensure that (1) documentation is maintained on the reconciliation of
Department and FWS records, and (2) complete and accurate database of land
acquired with Program funds or license revenue include the funding source.
Because of the lack of policies and procedures, the Department’s land records are
inadequate to ensure that lands acquired with Program funds or license revenues
are used only for their intended purpose.

Recommendations

We recommend that FWS requires the Department to develop policies and
procedures to—

    1. maintain documentation on the reconciliation of Department and FWS
       records and accuracy of the data; and

    2. maintain complete and accurate database of land acquired with
       Program funds or license revenue that include the funding source.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations. FWS
will work with the Department in developing and implementing a corrective
action plan that will resolve the finding and recommendations.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendations;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and


                                                                                     8
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

C. Inadequate Assent Legislation

Prior to 1989, the Mississippi Fisheries and Wildlife Bureaus operated under the
State Fish and Game Commission. In 1989, the State reorganized the Fish and
Game Commission and added the function of a parks agency forming the
Department of Wildlife, Fisheries, and Parks. Therefore, the assent legislation, by
allowing the use of license revenue for “administration of the Department,”
allows for the use of license revenues on park activities.

The State of Mississippi’s legislation assenting to the Wildlife and Sport Fish
Restoration Acts does not include a prohibition against diverting license fees for
purposes other than the administration of its fish and wildlife activities. While the
Mississippi Code of 1972, Annotated 49-5-27 (2011), specifies purposes for
which the fish and wildlife license revenues can be used, it does not specifically
prohibit the diversion of license revenues to non-fish and non-wildlife program
activities such as Parks.

According to 50 CFR § 80.3, a State may participate in the benefits of the Acts
only after it has passed legislation which assents to the provisions of the Acts and
has passed laws for the conservation of fish and wildlife including a prohibition
against the diversion of license fees paid by hunters and sport fishermen to
purposes other than the administration of the fish and wildlife agency. In addition,
50 CFR § 80.4 states that administration of the State fish and wildlife agency
includes only those functions required to manage the fish and wildlife oriented
resources of the State for which the agency has authority under State law.

The Department previously attempted to update its assent legislation during the
2008 legislative session, but the revision did not become law. Failure to enact
adequate assent legislation could result in the State becoming ineligible to
participate in the Program.

 Recommendation

 We recommend that FWS requires the Department to work with the State
 legislature to ensure assent legislation is passed that restricts the use of fish
 and game license revenues to the administration of the fish and wildlife
 activities.


Department Response
Department officials concurred with the finding and recommendation.




                                                                                     9
FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan to address this issue.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                               10
Appendix 1
                         State of Mississippi
            Department of Wildlife, Fisheries, and Parks
              Financial Summary of Review Coverage
                July 1, 2009, Through June 30, 2011

Grant        Grant          Claimed               Questioned
Number      Amount           Costs         Ineligible Unsupported
F-3-52       $260,000        $260,000
F-68-27      1,823,900       1,604,344
F-68-28      1,675,000       1,675,000
F-70-25        290,970         706,245
F-70-26        365,000         365,000
F-71-25      1,031,462         908,668
F-71-26      1,171,500         846,180
F-106-18     2,184,000       1,781,988
F-106-19     1,822,757       1,473,916
F-140-R-3      125,654         219,894
F-141-R-3       69,550         147,652
F-141-R-4       67,031          12,976
F-143-R-1      135,267         236,747        $3,896
F-143-R-2      135,933         216,642
F-148-B-1       96,550
W-5-21       1,191,218        1,846,600       17,259
W-5-22         926,954          926,956
W-10-65        155,000          137,290
W-10-66        127,592          203,286
W-10-67        150,978           70,916
W-48-57        576,269          713,484
W-48-58        532,929          234,544
W-49-56      4,385,135        4,445,785
W-49-57      4,230,908        6,407,636
W-49-58      4,770,743        3,468,356
W-57-36        950,590        2,291,129
W-57-37        917,968        1,781,157
W-57-38        956,500          694,512
W-60-7         184,028          323,757                    $10,602


                                                                     11
Grant         Grant         Claimed             Questioned
Number       Amount          Costs       Ineligible Unsupported
W-60-8        $189,333       $349,068      $1,899
W-60-9          195,013        170,572
W-61-D-1        376,480        653,590
W-61-D-2        680,515          2,028
TOTAL      $32,752,727    $35,175,918    $23,054     $10,602




                                                               12
Appendix 2
                  State of Mississippi
       Department of Wildlife, Fisheries, and Parks
                     Sites Visited

                       Headquarters
                        Jackson, MS

                        State Lakes
                        Bill Waller
                         Columbia

                Wildlife Management Areas
                        Caston Creek
                      Charles Ray Nix
                       Chickasawhay
                       Copiah County
                         Leaf River
                         Old River
                      Pascagoula River
                         Wolf River

                    State Fish Hatchery
     North Mississippi Education and Visitor Center, Enid
                          Turcotte

                           Other
          Mississippi Museum of Natural Science
          Turcotte Education and Shooting Facility




                                                            13
Appendix 3
                             State of Mississippi
                 Department of Fisheries, Wildlife, and Parks
               Status of Audit Findings and Recommendations

Recommendations                 Status               Action Required
A.1, A.2.1, A.2.2, A.3,   FWS management       Based on the FWS response,
A.4, B.1, B.2, and C      concurred with the   additional information is
                          recommendations,     needed in the corrective
                          but additional       action plan, as listed in the
                          information is       Findings and
                          needed.              Recommendations section
                                               under OIG Comments. We
                                               will refer the
                                               recommendations not
                                               resolved and/or implemented
                                               at the end of 90 days (after
                                               August 20, 2012) to the
                                               Assistant Secretary for Policy,
                                               Management and Budget for
                                               resolution and/or tracking of
                                               implementation.




                                                                             14
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
